IN THE SUPREME COURT OF THE UNITED STATES

Nos. 19-416, 19-453

NESTLE USA, INC., Petitioner,
v.
JOHN Dok |, et al. Respondents.
CARGILL, INCORPORATED, Petitioner,
ve
JOHN DOE I, et ai. Respondents.
CERTIFICATE OF SERVICE

I, Richard Samp, counsel for amicus curiae Washington Legal Foundation (WLF), and a
member of the Bar of this Court, hereby certify that on this 28th day of October, 2019, three
copies of the brief of WLF as amicus curiae in support of Petitioners were deposited in the U.S.

Mail, first-class postage prepaid, addressed to the following:

Andrew J. Pincus Neal Kumar Katyal Paul L. Hoffman

Mayer Brown LLP Hogan Lovells US LLP Schonbrun Seplow Harris

1999 K Street, NW 555 13th Street, NW & Hoffman

Washington, DC 20006 Washington, DC 20004 200 Pier Ave., Suite 226

202-263-3000 202-637-5600 Hermosa Beach, CA 90254

apincus@mayerbrown.com _ neal.katyal@hoganlovells.com 310-717-7373
Hoffpaul@aol.com

] further certify that electronic copies were sent to the individuals listed above and that all

Lea

Washington Legal Foundation
2009 Massachusetts Ave., NW
Washington, DC 20036

(202) 588-0302

parties required to be served have been served.
